George Grob

Deputy Inspector General 

  for Evaluation and Inspections

Beneficiary Awareness of Medicare HMOs, OEI-04-97-00035



Robert A. Berenson 

Director, Center for Health Plans

  and Providers, HCFA

Attached is our report on factors affecting Medicare beneficiary awareness of health
maintenance organizations (HMOs) located in their geographic area.

The Balanced Budget Act of 1997 enhanced beneficiaries’ health care choices and expanded
HCFA’s responsibilities for informing beneficiaries about their choices. Beneficiaries’ ability to
make informed choices depends most fundamentally on whether or not there are managed care
organizations in their geographic area and, if so, whether or not beneficiaries know about
them.

To determine the extent, accuracy, and source of beneficiary knowledge of managed care
options, we used our 1997 national beneficiary satisfaction survey to ask beneficiaries who
were not in HMOs about their awareness of Medicare HMOs. We then checked the accuracy
of beneficiary responses by determining whether or not they did indeed live in areas with
Medicare-contracted risk HMOs. Finally, we determined which factors influenced
beneficiaries’ knowledge of whether or not Medicare HMOs were available in their geographic
area.

Clearly, much has changed since 1997 about the extent of HMO availability and beneficiary
awareness of it. However, factors affecting beneficiary awareness may still be pertinent. With
that in mind, we offer this analysis to HCFA for use in your ongoing efforts to increase
awareness of managed care options. This data may also serve as a baseline for measuring
progress.

We found that of the beneficiaries who had HMOs in their geographic area, about half (54
percent) did not know about them. Interestingly, over one-fourth (26 percent) of the
beneficiaries who did not know about HMOs, but had HMOs available, said they would be
interested in joining an HMO.
Page 2 - Robert A. Berenson

Our analysis showed that beneficiaries who knew about Medicare HMOs lived in urban areas
that had a strong health insurance market penetration. Beneficiaries who lived in geographical
areas with HMOs and knew about them tended to live in urban areas that had a higher
percentage of Medicare beneficiaries using HMOs. They also tended to have medical coverage
in addition to Medicare. However, beneficiaries’ knowledge of HMOs did not correlate with
their age, gender, health status, or the average income in their area.

Beneficiary knowledge of managed care organizations in 1997 depended largely on commercial
advertisements and marketing. If this same dynamic holds true today, HCFA efforts to expand
beneficiary knowledge will need to be focused on areas where Medicare managed care options
are available, but where commercial advertising has not been effective in reaching Medicare
beneficiaries.

We hope you find this information useful as you make plans to educate beneficiaries about
Medicare+Choice. We also have studies underway on HMO marketing materials, extra
benefits, and HMO closings. We are now in the process of discussing the results of these
studies with your staff.

This report is being issued directly in final since it contains no recommendations. There is no
need to formally comment on the report. Nevertheless, your comments or questions are
welcome. You can call me at (202) 619-0480 or have your staff contact Stuart Wright at
(410) 786-3138.

Attachment
      Beneficiary Awareness
        of Medicare HMOs




                Prepared by 

U.S. Department of Heath and Human Services

         Office of Inspector General


        Office of Evaluation and Inspections

                    October 1999

                  OEI-04-97-00035

                             TABLE                OF           CONTENTS


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


         About Half of Beneficiaries Unaware if HMOs in Area . . . . . . . . . . . . . . . . . . . . . . . 3


         Of Beneficiaries with HMOs, About Half Unaware of Them . . . . . . . . . . . . . . . . . . . 3


         Those Who Knew Lived in Areas with Strong Market Penetration . . . . . . . . . . . . . . 4


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDIX A: Variables Included in Logistic Regression Analysis . . . . . . . . . . . . . . . . . . . 8


APPENDIX B : Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                                         INTRODUCTION

   PURPOSE

             To determine factors affecting Medicare beneficiary awareness of health maintenance
             organizations in their geographical area.


   BACKGROUND

             Balanced Budget Act

             The Balanced Budget Act of 1997 created Medicare Plus (+) Choice which enhanced
             beneficiaries’ health care choices. Medicare+Choice encompasses all the health plan
             choices a beneficiary has in the Medicare program. It includes the original fee-for-
             service program, risk health management organizations (HMOs), and new managed
             care models.

              Beneficiaries’ ability to make informed choices depends most fundamentally on
             whether or not there are managed care organizations in their area and, if so, whether or
             not beneficiaries know about them. Prior to the Balanced Budget Act, beneficiary
             knowledge of managed care organizations depended largely on commercial
             advertisements and marketing. However, the Balanced Budget Act expanded the
             Health Care Financing Administration’s (HCFA) responsibilities for informing
             beneficiaries about their choices.

             Data for this inspection was collected in 1997, prior to implementation of the Balanced
             Budget Act. Clearly much has changed about the extent of HMO availability and
             beneficiary awareness of it. However, factors affecting beneficiary awareness may still
             be pertinent. With that in mind, we offer this analysis to HCFA for use in ongoing
             efforts to increase awareness of managed care options. This data may also serve as a
             baseline for measuring progress in this regard.

   METHODOLOGY

             As part of a broad 1997 national survey to determine beneficiary satisfaction with
             Medicare,1 we asked beneficiaries who were not in HMOs about their awareness of
             Medicare HMOs. We then checked the accuracy of beneficiary responses by


       1
        Office of Inspector General, United States Department of Health and Human Services. Medicare
Beneficiary Satisfaction: 1997. OEI-04-97-00030.

Beneficiary Awareness of Medicare HMOs               1                                         OEI-04-97-00035
             determining whether or not they did indeed live in areas with Medicare-contracted risk
             HMOs.

             The following describes more specifically how we extracted and analyzed data for this
             inspection.

             1.	      In July 1997, we mailed a questionnaire to 1269 randomly-selected Medicare
                      beneficiaries for whom Part B claims had been filed in Calendar Year 1996.
                      Beneficiary participation in the survey was voluntary. A total of 977
                      beneficiaries returned completed questionnaires, for a response rate of 77
                      percent. Percentages are based on the number of beneficiaries who responded
                      to the questions about HMOs.

             2.	      We matched addresses of the 977 respondents with HCFA’s database showing
                      which zip codes were covered by Medicare HMOs at the time of our survey.
                      This resulted in a database containing 621 beneficiaries (64 percent of our
                      respondents) who lived in a zip code covered by a Medicare HMO.

             3.	      We then matched the 621 beneficiaries with (1) Medicare enrollment data,
                      which includes beneficiary characteristics, (2) 1990 Census data, (3) data on
                      Medicare HMO market penetration, and (4) Medicare claims data.

             4.	      We used a logistic regression analysis to identify variables that would
                      distinguish between (1) beneficiaries who said that Medicare-contracted HMOs
                      were available in their geographical area and (2) beneficiaries who did not know
                      or who said that Medicare HMOs were not available. Appendix A lists the
                      variables that we included in this analysis.

                                         ____ ____ ____ ____ ____

             We conducted this inspection in accordance with the Quality Standards for Inspections
             issued by the President’s Council on Integrity and Efficiency.




Beneficiary Awareness of Medicare HMOs              2                                     OEI-04-97-00035
                                               FINDINGS

   About half of beneficiaries did not know if a Medicare HMO
   was located in their geographical area
             We asked beneficiaries in our sample if they lived in a location where they could join an
             HMO. The following table shows that over half said they did not know, and another 8
             percent said they did not live in an area with HMOs.

                                           Beneficiary Knowledge
                                                 Of HMOs


                                             Category                        Percent

                           Beneficiaries who said they did live in an area     36
                           with Medicare HMOs

                           Beneficiaries who said they did not live in an      8
                           area with Medicare HMOs

                           Beneficiaries who said they did not know if         56
                           they lived in an area with Medicare HMOs

             The majority of beneficiaries (69 percent) who said they knew about HMOs in their
             area said they learned of them through HMO advertising.

   Of beneficiaries who did have HMOs in their area, about
   half did not know about them
             When we matched the database of Medicare-contracted HMOs to the zip codes of our
             survey respondents, we found that of the beneficiaries who had HMOs in their area,
             about half (54 percent) did not know about them. They had answered either “No” or
             “Do Not Know” when asked if their geographical area had a Medicare HMO. Forty-
             six percent of beneficiaries who lived in an area with HMOs did know about them.

             We also asked the beneficiaries if they would be interested in joining an HMO. One-
             fourth (26 percent) of those who lived in an area where an HMO was located and did
             not know it, said they would be interested in joining an HMO.



Beneficiary Awareness of Medicare HMOs                3                                  OEI-04-97-00035
   Those who knew about HMOs lived in urban areas with a
   strong health insurance market penetration
             Our analysis of the 621 beneficiaries who lived in geographical areas with HMOs
             showed that those beneficiaries who knew about the HMOs had some common
             characteristics. They tended to live in urban areas that had a higher percentage of
             Medicare beneficiaries in HMOs, and they had medical coverage in addition to
             Medicare. Beneficiaries’ knowledge of HMOs did not correlate with their age, gender,
             health status, or the average income in their area.2

             As illustrated in Figure 1 below, beneficiaries who lived in counties with higher
             Medicare HMO market penetration were more likely to know that HMOs were
             available.



                                                   Figure 1

                                           Beneficiary Knowledge 

                                         by HMO Market Penetration





         2
          For a complete list of the variables that we evaluated, see appendix A.

Beneficiary Awareness of Medicare HMOs                   4                               OEI-04-97-00035
   Beneficiaries who lived in urban counties were more likely to know that HMOs were available,
   as shown in Figure 2 below.

                                                   Figure 2

                                            Beneficiary Knowledge

                                         by Percent Urban Population





   Beneficiaries who had insurance coverage in addition to Medicare or Medicaid were more
   likely to know that HMOs were available, as shown in the table below.

                                           Beneficiary Knowledge
                                           by Insurance Coverage

                 Category                Percent Who Knew     Percent Who Did Not       Total
                                             of HMOs            Know of HMOs
       HAD Medical Coverage in
             Addition to                         53                     47               100
        Medicare and Medicaid
      NO Medical Coverage in
             Addition to                       24                       76                 100
       Medicare and Medicaid
   Two other variables--disability and race--were only significant at the 90 percent confidence
   level after adjusting for the three variables already described (market penetration, percent

Beneficiary Awareness of Medicare HMOs                5                               OEI-04-97-00035
   urban, and insurance coverage). As shown in the tables below, beneficiaries who had never
   received Medicare based on disability, and beneficiaries who were white, were more likely to
   know that HMOs were available. (The statistics in these tables are not adjusted for the
   influence of other variables.)

                                              Beneficiary Knowledge
                                              by Disability Category

                 Category                     Percent Who          Percent Who Did Not            Total
                                                 Knew                Know of HMOs
                                               Of HMOs
       Never Received Medicare
                                                   50                         50                   100
          Due to Disability
          Did Receive Medicare
                                                   31                         69                   100
            Due to Disability


                                              Beneficiary Knowledge
                                                by Race Category

              Category          Percent Who Knew        Percent Who Did Not              Total
                                     of HMOs              Know of HMOs
                White                    49                         51                    100
             Non-White                   30                         70                    100


   HCFA Study

   Results of our analysis are similar to those found by HCFA’s Office of Strategic Planning when
   they analyzed beneficiary responses to the Medicare Current Beneficiary Survey3. The HCFA
   study found that (1) Medicare HMO market penetration, (2) beneficiaries’ educational level,
   and (3) beneficiaries’ self-reported health status influenced whether or not beneficiaries knew
   about Medicare HMOs in their area. A direct comparison, however, between our study and
   HCFA’s study cannot be made because definitions of some of the variables differed.




         3
          Health Care Financing Administration, Office of Strategic Planning, August 12, 1998

Beneficiary Awareness of Medicare HMOs                  6                                        OEI-04-97-00035
                                         CONCLUSION

   Clearly, beneficiary knowledge of managed care organizations in 1997 depended largely on
   commercial advertisements and marketing. If this same dynamic holds true today, HCFA
   efforts to expand beneficiary knowledge will need to be focused on areas where Medicare
   managed care options are available, but where commercial advertising has not been effective in
   reaching Medicare beneficiaries.




Beneficiary Awareness of Medicare HMOs         7                                     OEI-04-97-00035
                                                                                          APPENDIX A



         VARIABLES INCLUDED IN LOGISTIC REGRESSION ANALYSIS


             Variable                                          Description
     County HMO                    Percent of Medicare beneficiaries who were enrolled in Medicare-
     market penetration            contracted HMOs at the time of our survey, by county
     County percent                Percent of population in an “urban” area, by county (based on 1990
     urban                         census)
     Zip code percent              Percent of population in an “urban” area, by zip code (based on
     urban                         1990 census)
     County metropolitan
                                   Metropolitan statistical area designation, by county
     statistical area
     County median
                                   Median household income, by county (based on 1990 census)
     income
     Zip code median
                                   Median household income, by zip code (based on 1990 census)
     income
     Age                           Beneficiary’s age at time of survey
     Gender                        Beneficiary’s gender
     Race                          Beneficiary’s race
                                   Determines whether the beneficiary has ever received Medicare
     Disability
                                   benefits because of disability
                                   Determines whether the beneficiary had supplemental insurance. If
     Supplemental
                                   yes, was it Medicaid only, or did it include other insurance such as
     insurance
                                   Medigap? (This variable came from our beneficiary survey.)
                                   Total Medicare payments for the beneficiary, for the twelve months
     Medicare payments
                                   up to the survey date
                                   Health status score based on diagnosis mix in Medicare claims for
     Health status
                                   the twelve months up to the survey date




Beneficiary Awareness of Medicare HMOs                  8                                    OEI-04-97-00035
   The following table shows the five variables that remained in the final regression model, along
   with the confidence level that each variable was significant.

                        Variable                          Confidence level
           Natural logarithm of county
                                                         greater than 99.9%
           HMO market penetration
           Supplemental insurance                        greater than 99.9%
           County percent urban                                 99.8%
           Disability                                           92.1%
           Race                                                 91.3%




Beneficiary Awareness of Medicare HMOs          9                                     OEI-04-97-00035
                                                                               APPENDIX B



                                         CONFIDENCE INTERVALS

   The following table shows point estimates and 95 percent confidence intervals for selected
   statistics, in the order that they appear in the report.

     Statistic                                              Point                   95%
                                                           estimate          confidence interval
     Percent of Medicare beneficiaries who said that
                                                           36.4%               33.3% - 39.5%
     they did live in an area with Medicare HMOs

     Percent of beneficiaries who said they did not live
                                                            7.6%                 5.9% - 9.3%
     in an area with Medicare HMOs

     Percent of beneficiaries who said they did not
     know if they lived in an area with Medicare           56.0%               52.8% - 59.2%
     HMOs

     Of beneficiaries who lived in a zip code with one
     or more Medicare HMOs, percent who did not            53.5%               49.4% - 57.6%
     know about them

     Of beneficiaries who (1) lived in a zip code with
     one or more Medicare HMOs and (2) did not
                                                           25.5%               20.2% - 30.8%
     know about them, percent who said they would be
     interested in joining an HMO




Beneficiary Awareness of Medicare HMOs                10                             OEI-04-97-00035
